             OFFICE OF
             INSPECTOR GENERAL
             U.S. DEPARTMENT OF THE INTERIOR

                                                                                           June 11 ,20 13
Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Manage: ent           /J
                                                     1
From:         Michael P. Colombo         L -/,/f}:: t::::f:J
              Western Regional     Ma~ fo;1u~its, Inspections, and Evaluations
Subject:      Verification Review of Recommendations for the Flash Report, " Fish and
              Wildlife Service: Jackson National Fish Hatchery In Need of Immediate Action"
              (C-IN-FWS-0009-2007, May 2007)
              Report No. WR-VS-FWS-0011-2013

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review of the two recommendations presented in the subject flash
report. The obj ective of the verification was to determine whether the U.S. Fish and Wildlife
Service (FWS) implemented the recommendations as reported to the Office of Financial
Management (PFM), Office of Policy, Management, and Budget. PFM reported to OIG when
FWS had addressed and provided supporting documentation for both recommendations in the
subject report. Based on our review, we determined that Recommendation 1 is unresolved and
Recommendation 2 is resolved and implemented.

Background

       Our May 2007 flash report, "Fish and Wildlife Service: Jackson National Fish Hatchery
In Need of Immediate Action," contained two recommendations pertaining to the safety of DOI
employees.

      FWS agreed with both recommendations and provided its plan of action in a
memorandum dated June 15, 2007. Based on this memorandum, we considered both
recommendations resolved but not implemented. On September 30,2010, PFM notified us that
Recommendations 1 and 2 were closed.

Scope and Methodology

      The scope of this review was limited to determining whether FWS took action to
implement our recommendations. To accomplish our obj ective, we reviewed the supporting
documentation that FWS provided and discussed actions taken relating to both
recommendations.




                        Office of Audits, Inspectio ns, and Evaluations I Sacramento, CA
        We did not perform any site visits or conduct fieldwork to determine whether FWS had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Qovernrnent Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       We determined that Recommendation 1 is unresolved and Recommendation 2 is resolved
and implemented.

       Recommendation 1: Protect the lives of DOl employees by prohibiting access to the
       unsafe buildings.

        In 2010, FWS completed a new hatchery building and moved all work activities into the
building. According to an internal memorandum on March 20, 2013, however, FWS is still using
areas of the former hatchery to store equipment. In our original report, we determined that the
hatchery was unsafe for employees. Currently, employees are allowed to access buildings under
very restricted conditions and for short periods to access this equipment.

       Based on our review of documents, we conclude that Recommendation 1 is unresolved
and should be reopened for tracking by PFM. To meet the requirements of the recommendation,
FWS must prohibit employee access to all unsafe buildings, regardless of how restricted or short
the access time may be.

       Recommendation 2: Ensure that resources are made available so the Jackson National
       Fish Hatchery and storage buildings can be designed and constructed.

        FWS' audit liaison provided the contract issued to construct the new fish hatchery
building and the final payment and closeout documents for the contract. Construction on the new
fish hatchery building began in April 2009 and was completed in August 2010.

       Based on information provided by the audit liaison and our review of documents, we
conclude that Recommendation 2 has been resolved and implemented.

Conclusion

       We informed FWS officials of the results ofthis review at an exit conference on May 2,
2013. FWS officials agreed with the results of our review.

       If you have any questions about this report, please contact me at 916-978 -5653.

cc:    Nancy Thomas, Liaison Officer, Office of Financial Management
       Sharon Blake, Liaison Officer, Office of Financial Management
       Katherine Garrity, Audit Liaison Officer, U.S. Fish and Wildlife Service



                                                 2
